HHS/OIG-Audit--"Review of the Commonwealth of Pennsylvania's Use of Intergovernmental Transfers to Finance Medicaid Supplementation Payments to County Nursing Facilities, (A-03-00-00203)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Commonwealth of Pennsylvania's Use of Intergovernmental Transfers to Finance Medicaid Supplementation
Payments to County Nursing Facilities," (A-03-00-00203)
February 9, 2001
Complete
Text of Report is available in PDF format (2.11 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Under current Medicaid law, States can establish payment methodologies that allow for enhanced payments to non-State owned
government providers, such as county nursing facilities. This final report points out that Pennsylvania is not using this
provision for such purposes. Instead, Pennsylvania used the program as a financing mechanism designed solely to maximize
Federal Medicaid reimbursements, thus effectively avoiding Medicaid's Federal/State matching requirements. Since Fiscal
Year 1992, the State has generated $3.1 billion in Federal matching funds without any corresponding increase in services
to the Medicaid residents of county nursing facilities. Further, in the last 3 years a significant percentage (about 21
percent) of the FFP generated was not even budgeted for Medicaid purposes, and another 29 percent remained unbudgeted and
available to Pennsylvania for non-Medicaid related use. We recommended that the Health Care Financing Administration move
quickly to place a control on the overall financing mechanisms being used by States to circumvent the Medicaid program
requirement that expenditures be a shared Federal/State responsibility, and that the enhanced funding be used for the direct
health care benefit of Medicaid patients in county nursing facilities. The HCFA concurred and is taking action to curtail
this problem.